                  U.S. Department of Agriculture

                     Office of Inspector General
                              Southwest Region




          Audit Report


    Single Audit Management
National Rural Water Association




                        Audit Report 50022-9-Te
                                      June 2005
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL
                                          Southwest Region - Audit
                                      101 South Main Street, Suite 324
                                           Temple, Texas 76501
                                   TEL: 254-743-6565 FAX: 254-298-1373




June 13, 2005


TO:             Robert Johnson
                Chief Executive Officer
                National Rural Water Association
                2915 South 13th Street
                Duncan, Oklahoma 73533

ATTN:           Claudette Atwood
                Chief Financial Officer

SUBJECT:        Audit Report 50022-9-Te, Single Audit Management – National Rural Water
                Association


We have completed our initial and quality control reviews of the single audit of the National
Rural Water Association (NRWA) for the fiscal year (FY) ending February 28, 2002. The
Certified Public Accountant (CPA) firm of Eldridge Gordon, Jr. P.C., performed the audit.

In our opinion, the audit of your FY 2002 financial statements and compliance with contracts and
grant agreements did not meet the requirements for a Single Audit. Consequently, you should
obtain an audit of your FY 2002 financial statements that meets the requirements of the Single
Audit Act and Office of Management and Budget (OMB) Circular A-133.

Based on our review, we found several instances where the CPA firm did not meet the general
requirements of the Single Audit Act of 1984 and the OMB Circular A-133. Specifically, the
CPA firm did not test a major type-A program; did not audit 50 percent of the type-A major
programs, as required; did not adequately document the working papers to support his
completion of compliance requirements or his audit of indirect costs, and did not identify all
findings. Our findings, in detail, and recommended corrective actions are presented under the
Findings and Recommendations section of this report. Also under this section are excerpts from
the auditee’s response to the draft report and the Office of Inspector General’s (OIG) position.
The auditee’s complete response, dated May 23, 2005, is included as exhibit A.

Based on this response, the auditee is working with its current CPA firm to provide a new audit
of its FY 2002 financial statements that will comply with its contracts, grant agreements, the
Single Audit Act and OMB Circular A-133. No further response is needed for this report.
Robert Johnson                                                                                                                        2


BACKGROUND

The Inspector General Act of 1978, as amended (5 U.S.C. App. (1982)), requires Federal Inspectors
General to ensure that non-Federal auditors comply with Generally Accepted Government Auditing
Standards when they audit Federal programs, activities, and functions.

The Single Audit Act of 1984 (Public Act 98-502) and the Single Audit Act Amendments of
1996 (Public Law 104-156) initiated the issuance of OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations (revised June 24, 1997). The circular set forth
standards for obtaining consistency and uniformity among Federal agencies for the audit of States,
local governments, and nonprofit organizations expending Federal awards.

The NRWA is a nonprofit federation of 45 State rural water associations from the 48 contiguous
States. Incorporated in 1976, the affairs of NRWA are directed by a board of directors composed of
members from each State association. NRWA provides training and onsite assistance to rural water
and sewer systems throughout the United States through grants and contracts received from the
Environmental Protection Agency (EPA) and the U.S. Department of Agriculture’s, Rural Utilities
Service (RUS).

OMB Circular A-133, dated June 24, 1997, required recipients of Federal funds, expending more
than $25 million a year in Federal awards, to have a cognizant agency for audit. The NRWA
expended over $27.8 million in its FY 2002. The U.S. Department of Agriculture had been its
cognizant audit agency since FY 2000.1 The Single Audit Act of 1984 and its amendments required
A-133 audits of NRWA.

In performing the audit, the auditor should have used a risk-based approach to determine which
Federal programs were major programs. This risk-based approach should have included
consideration of current and prior audit experience, oversight by Federal agencies, and inherent risk
of the Federal programs. The auditor should have identified the larger Federal programs (type-A
programs) based upon the calculation threshold determined by OMB Circular A-133, subpart 520.2
Under certain circumstances, a type-A program can be determined as low-risk. The auditor should
identify type-A programs that are low-risk. For a type-A program to be considered low-risk, it
should have been audited, as a major program in at least one of the two most recent audit periods,
and should not have had any audit findings, or changes in personnel or its system. At a minimum,
the auditor shall audit all type-A programs, except those identified as low-risk. The auditor shall
audit Federal programs with Federal awards expended that, in the aggregate, encompass at least
50 percent of total Federal awards expended. If the auditee meets the criteria for a low-risk auditee,
the auditor need only audit Federal awards expended that, in the aggregate, encompass at least
25 percent of the Federal awards expended.




1
  Designated as the Federal agency contributing the predominant amount of direct funding to the recipient, unless OMB designates another
specific cognizant agency for audit assignment.
2
  Three percent of total Federal awards expended
Robert Johnson                                                                                  3


OBJECTIVES

The objectives of the initial review and quality control reviews were to (1) ensure that the audit
reports met applicable reporting standards and OMB Circular A-133 reporting requirements,
(2) identify any followup audit work needed, (3) identify issues that may require management
attention, and (4) ensure that the audits were conducted in accordance with Generally Accepted
Government Auditing Standards and generally accepted auditing standards.

SCOPE AND METHODOLOGY

We reviewed NRWA’s audit report for the year ending February 28, 2002, the CPA firm’s
working papers supporting its audit of those financial statements, and the NRWA’s compliance
with laws and regulations. We planned and performed our initial review and quality control
review based upon the Uniform Guide, President’s Council on Integrity and Efficiency, of
OMB Circular A-133 Audits. 3 The focus of our initial review was the audit report. We focused
our quality control review on the auditors’ qualifications, independence, due professional care,
quality controls, planning, and supervision. We also assessed the CPA firm’s documentation of
its work on Federal receivables and payables, major program determinations, internal controls,
and compliance testing for major programs. We reviewed the working papers supporting the
(1) schedule of expenditures of Federal awards, (2) followup on prior years’ findings,
(3) schedule of findings and questioned costs, and (4) data collection forms. We reviewed the
CPA firm’s working papers supporting its tests of two of six major programs and interviewed the
CPA official. We discussed, by telephone, aspects of NRWA, EPA, and RUS grant operations
with NRWA’s Chief Financial Officer, EPA, and RUS officials. We also discussed interest
bearing accounts with EPA, Oklahoma banking and NRWA officials, obtaining applicable data
as needed. In order to determine the validity of the CPA’s scope of work for the FY 2002 audit,
we reviewed the scope of work of the prior two NRWA audits.

We met with the CPA at his offices in Oklahoma City, Oklahoma, on July 7, 2004, and obtained
the working papers supporting the audit of NRWA’s FY 2002 financial statements. We reviewed
the working papers in our offices in Temple, Texas. We returned the working papers to the CPA
on August 2, 2004.

FINDINGS AND RECOMMENDATIONS

FINDING 1: The CPA Did Not Provide Required Audit Coverage

The CPA did not audit sufficient type-A major programs. This occurred because the auditor
improperly determined the auditee to be a low-risk auditee, which would only have required the
testing of 25 percent of Federal awards expended, not the 50 percent coverage actually required.
As a result, NRWA did not receive an audit of its FY 2002 financial statements conducted in
accordance with the Single Audit requirements of OMB Circular A-133.




3
    1999 edition
Robert Johnson                                                                                   4


OMB Circular A-133, section .520(e), states that, at a minimum, the auditor shall audit all of the
following as major programs: all type-A programs, 4 except those that have been audited in one of
the last 2 years and such additional programs as may be necessary to comply with the percentage of
coverage rule discussed in paragraph (f). Section .520(b)(1)(i), defines a major program to be one
whose expenditures exceed $300,000 or 3 percent of total Federal awards 5 expended.
Section .520(c)(1) states that a type-A program should not be considered a low-risk program unless
it had been audited as a major program in one of the two most recent audit periods as required by
Federal guidelines.6

OMB Circular A-133, section .520(f), states that the auditor shall audit as major programs Federal
programs with Federal awards expended that, in the aggregate, encompass at least 50 percent of
total Federal awards expended. If the auditee meets the criteria in section .530 for a low-risk
auditee, the auditor need only audit as major programs Federal programs with Federal awards that,
in the aggregate, encompass at least 25 percent of the total Federal awards expended.

OMB Circular A-133, section .530, states that an auditee which qualifies as a low-risk auditee and
eligible for reduced audit coverage in accordance with section .520 is one for which single audits
have been performed on an annual basis that meet with the provisions of OMB Circular A-133.

The auditee, NRWA, expended Federal awards totaling $27,866,073 in FY 2002. To meet the
50 percent criteria, the auditor would have had to audit expenditures of Federal awards exceeding
$13,933,036. However, the auditor indicated on the schedule of expenditure of Federal awards only
that he audited as major programs those Federal awards with expenditures totaling $8,927,194 in
FY 2002.

Though the auditor determined NRWA to be a low-risk auditee, the auditee did not meet the criteria
established by OMB Circular A-133, section .530(a). The FY 2001 audit had audited the same
three type-A major programs as the prior FY 2000 audit – allowing two type-A major
programs to be unaudited for two audit periods. In order to have met the criteria of
section .530(a) those two major programs would have had to meet the criteria of sections .520(c)(1)
and .520(e)(1), i.e., to have been audited in either FYs 2000 or 2001.

In addition, another major type-A program, other than the two the auditor audited in FY 2002 was
required to be audited in FY 2002, since it had not been audited in FY 2001. Board Support
Training became a grant administered by NRWA in June 2000, NRWA’s FY 2001. FY 2001
would have been the first opportunity it could have been audited; therefore, it was absolutely
required to have been audited in FY 2002. Because Board Support Training, and the other two
major type-A programs audited in FY 2002, were not audited in FY 2001, NRWA did not
qualify as a low-risk auditee – eligible for 25 percent audit coverage. Consequently, the CPA
auditor did not audit sufficient type-A major programs to provide an audit in accordance with OMB
Circular A-133 guidelines in FY 2002.          It should be noted, however, that had the auditor
incorporated Board Support Training into the FY 2002 audit, the audit coverage would still not have
met the 50 percent audit coverage required, as follows:

4
  Type-B programs are those not identified as type-A major programs.
5
  Total Federal awards expended by the NRWA in 2002 were less than $100 million.
6
  OMB Circular A-133, dated June 24, 1997
Robert Johnson                                                                                     5


Total Grants Administered by NRWA in FY 2002:                                $ 27,866,073
Grants Audited by CPA                                      32 percent            8,927,194
Addition of Board Support Training                                              1,047,802
Prospective FY 2002 Audit                                  36 percent        $ 10,046,840
Required FY 2002 audit coverage would include the programs audited in FY 2002, the addition of
RUS’ Board Support Training and EPA’s Groundwater and Wellhead Protection contract
($4,141,241) or both contracts associated with EPA’s Training and Onsite Assistance ($4,361,613).

RECOMMENDATION 1:

Provide a FY 2002 audit that meets the requirements of the Single Audit Act and OMB
Circular A-133.

AUDITEE RESPONSE:

The auditee stated, “As discussed in the exit conference, NRWA will contract with its current
auditor to have an OMB Circular A-133 audit of the fiscal year ending February 28, 2002. All the
findings and recommendations that have been discussed in the report will be implemented in
connection with the new audit.”

OIG POSITION:

OIG agrees with the action taken. No further response is needed for this report.

FINDING 2: Schedule of Expenditures of Federal Awards Incomplete

The schedule of expenditures of FY 2002 Federal awards incorrectly reported (1) contract numbers,
(2) type-A major programs, and (3) award years and amounts expended. This occurred because the
auditor did not verify the expenditures and other information with supporting data. As a result,
Federal-awarding agencies may experience difficulty tracking expenditures by program area from
year-to-year.

OMB Circular A-133, section .320(b), requires that the data collection form include the name of
each Federal program, identification of each major program, and the amount of expenditures of
Federal awards associated with each Federal program. Section .300 requires the auditee to identify,
in its accounts, all Federal awards received and expended and the Federal programs under which
they were received. Federal awards identification shall include the Catalog of Federal Domestic
Assistance title and number, award number and year, and the name of the Federal Agency.
Section .300(d) states that the auditee shall prepare appropriate financial statements, including the
schedule of expenditures of Federal awards in accordance with section .310. Section .310 requires
notes on the schedule of expenditures of Federal awards that describe the significant accounting
policies used in preparing the schedule. At a minimum, the schedule shall (1) list individual Federal
programs by Federal agency, (2) include notes that describe the significant accounting policies used
in preparing the schedule, and (3) pass-through entities should identify in the schedule the total
amount provided to subrecipients from each Federal program.
Robert Johnson                                                                                        6


RECOMMENDATION 2:

Provide a properly formatted FY 2002 Schedule of Expenditures of Federal Awards indicating all of
the Federal awards, the years of the awards and/or the contract numbers, the contract amounts
associated with the awards, the expenditures associated with those awards, and which of those
awards were audited with the FY 2002 audit.

AUDITEE RESPONSE:

The auditee’s response indicated that all recommendations in this report would be implemented
with the conduct of the new audit of its FY 2002 financial statements. See response to Finding 1.

OIG POSITION:

OIG agrees with the action taken. No further response is needed for this report.

FINDING 3: Working Papers Did Not Support Opinion on Compliance Requirements

The CPA’s working papers did not support that the CPA performed sufficient auditing procedures
to test NRWA transaction data for compliance requirements, other than limited tests of charges to
the grants audited. The CPA limited compliance testing because he believed the grantee Federal
agencies to be inattentive to noncompliance with grant agreements. As a result, Federal agencies
and other users of the NRWA’s financial statements may improperly rely upon the CPA’s opinion
of the NRWA’s compliance with laws, regulations, and covenants of grant and contract agreements.

OMB Circular A-133, section, 235(b)(3)(iii), states that the auditor shall perform an audit of the
financial statements for the Federal program and perform procedures to determine whether the
auditee has complied with laws, regulations, and the provisions of contracts or grant agreements
consistent with the requirements of section .500(d). Section .500(d) states that the principal
compliance requirements applicable to most Federal programs are included in the compliance
supplement and that an audit of these compliance requirements will meet the requirements of this
part. The auditor should review the provisions of contracts and grant agreements and the laws and
regulations referred to such contracts and agreements; compliance testing shall include tests of
transactions and such other auditing procedures necessary to provide the auditor sufficient evidence
to support an opinion on compliance.

Though more than 90 percent of the Federal grant funds awarded to NRWA in FY 2002 were
passed through to the States, the auditor did not test NRWA’s controls over monitoring the State’s
expenditures in accordance with grant covenants or OMB Circular A-133, part 3, Compliance
Supplement, requirements. In addition, our review of the auditor’s working papers revealed no
evidence that the auditor had performed suggested or alternative tests of compliance in the
following areas:

   •   A review of the indirect cost rate proposal, or the charges of indirect or other allocated costs,
       for allowability as required by the OMB Circular A-133, part 3, Compliance Supplement.
       NRWA is required to submit its indirect cost rate proposals each year to its cognizant
Robert Johnson                                                                                         7


             agency 7 for approval of its indirect cost rate; however, since 2001, NRWA had been
             submitting its indirect cost proposals to EPA, rather than to the U.S. Department of
             Agriculture, as required.

        •    A review of cash management procedures, including the deposits of grant fund advances
             into interest bearing accounts and remission of interest earned on those advances to the
             awarding entities, as required by OMB Circular A-133, part 3, Compliance Supplement.

        •    A review of transactions that “earmarked” a percentage of Federal awards expenditures for
             prime contracts and subcontracts for supplies, construction, equipment, or services to be
             made available to organizations owned or controlled by socially and economically
             disadvantaged individuals, women, and historically black colleges and universities at
             NRWA and to its subrecipients, as required by OMB Circular A-133, part 3, Compliance
             Supplement.

        •    A review of NRWA’s procedures for monitoring to preclude its own, and States’, use of
             debarred and suspended persons and firms vendors to fulfill contracts for goods and services
             funded with Federal awarded funds, as required by OMB Circular A-133, part 3,
             Compliance Supplement.

        •    A review of the financial and performance reporting requirements for recipients of Federal
             awards to ascertain that reporting was accomplished as required and that reporting was
             accurate and supported by documents indicating the need for, or the use of, funds to be
             distributed as required by OMB Circular A-133, part 3, Compliance Supplement. The
             auditor stated that he had verified that there was documentation to support the requests for
             advance or reimbursement, form SF-270, but he had not traced the amounts reported to
             source documents, except for payroll amounts for the two type-A major programs he
             audited, but he had not checked the math of the documentation to the forms.

FINDING 4: NRWA Official Limited Scope of Audit

The CPA conducting the audit of NRWA’s FY 2002 financial statements did not contact NRWA’s
attorneys to determine the status of any then current or pending litigation against NRWA. This
occurred because an NRWA official prevented him from conducting that audit step required by
Generally Accepted Government Auditing Standards according to his working papers. As a result,
the FY 2002 audit of NRWA did not meet standards of a Single Audit, despite the unqualified
opinion received on the audit.

AICPA Codification of Statements on Auditing Standards, section 337.08, states that a letter of
audit inquiry to the client’s lawyer is the primary means of obtaining corroboration of the
information furnished by management concerning litigation, claims, and assessments. Evidential
matter obtained from a client’s inside counsel is not a substitute for information outside counsel
refuses to furnish. AICPA Codification of Statements on Auditing Standards, section 337.13, states
that a lawyer’s refusal to furnish the information requested in an inquiry letter either in writing or
orally would be a limitation on the scope of the audit sufficient to preclude an unqualified opinion.
7
    The Federal agency providing the majority of Federal funding
Robert Johnson                                                                                      8


While the lawyer(s) did not refuse to answer a CPA’s inquiry letter, the CPA’s working papers
noted that a NRWA official refused to permit the CPA to make inquiry of the NRWA attorneys,
indicating that various attorneys were used by the organization only for lobbying activities, and that
it would not be necessary for the auditor to perform that audit procedure. In our opinion, preventing
independent corroboration of management disclosures of litigations, claims, and assessments is a
scope limitation in and of itself and should have generated a qualified opinion at the very least.

RECOMMENDATION 3:

Provide the CPA performing the FY 2002 audit with the names and addresses of its attorneys under
retainer in FY 2002 and afford them all the cooperation needed to perform the procedures necessary
to obtain corroboration of management’s statements.

AUDITEE RESPONSE:

The auditee response stated, “* * * This finding was a matter of what was found to be in the
auditor’s workpapers and not what was found to be actual fact. We would like for this to be
clarified in the final report.” NRWA officials indicated that they were “* * * fully aware that this
(inquiry) was part of the scope of an audit and would allow current auditors to question the
attorneys whether they disclose lobbying activities or litigations, claims or assessments. * * *.”
Further, the auditee’s response indicated that all recommendations in this report would be
implemented with the conduct of the new audit of its FY 2002 financial statements. See response to
Finding 1.

OIG POSITION:

While we did not alter the title of the finding, we did indicate that the working papers indicated the
scope limitation. We do not know the facts—we only reviewed the CPA’s working papers and
noted that he did not inquire of the attorneys, noting the reasons. The impact is a scope limitation
still, not just a compliance issue. However, because the auditee has agreed to obtain a new audit of
the FY 2002 financial statements, the scope limitation versus compliance deficiency is a moot point
once that audit is accomplished. We agree with the action taken. No further response is needed for
this report

We appreciate the courtesies and cooperation extended to our staff during this review. Please
contact Regional Inspector General Timothy Milliken at (254) 743-6565, or Senior Auditor James
Goodwin at (254) 743-6593, if you have further questions or need additional information.



        /s/
TIMOTHY R. MILLIKEN
Regional Inspector General
 for Audit
Exhibit A– Auditee Response
                              Exhibit A – Page 1 of 1
Informational copies of this report have been distributed to:

John Purcell, Director, FMD                                                   (6)
Leah Nikaidoh, Single Audit Coordinator, Environmental Protection Agency      (1)
Eldridge Gordon, Jr. PC, Certified Public Accountant                          (1)
Jeff L. Justis, Assistant Regional Inspector General for Audit, OIG-SER       (1)
Federal Audit Clearinghouse, 1201 E. 10th Street, Jeffersonville, In. 47132   (1)
